Final Report, “[A NASA] Center’s Security Program Needed Improvement” (IG-08-025,
September 19, 2008)

The Office of Inspector General conducted this audit in response to a request from the
Chairman of the Permanent Subcommittee on Investigations, Senate Committee on
Homeland Security and Governmental Affairs, to investigate allegations received by his
office of serious security concerns at a NASA Center. Our overall objective was to
determine whether security services provided at the Center complied with NASA
Security Program requirements, policies, and procedures.

Our audit validated the overarching premise of the allegations. We found that the
Center’s security program was not in compliance with NASA Security Program
requirements and that NASA Headquarters was not inspecting the Center’s program, as
required by NASA policy. As a result, NASA had no assurance that it was devoting the
appropriate level of resources to protect the Center’s personnel, facilities, and equipment.
Management officials agreed with all but one of our recommendations. The corrective
actions described by management for seven of our recommendations were responsive,
and the completion of these actions will meet the intent of the eighth recommendation.

The report contains Infrastructure/Security Vulnerabilities Information that is exempt
from public release under the Freedom of Information Act (FOIA). For information
concerning FOIA requests, see the online guide.
